March 31, 2009

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

WILLIAM J. SCHNAARS
MANAGER, NEW YORK DISTRICT

EDWARD L. GAMACHE
MANAGER, MAINTENANCE POLICIES AND PROGRAMS

SUBJECT: Audit Report – New York District Building Equipment Maintenance
         (Report Number DA-AR-09-006)

This report presents the results of our self-initiated audit of building equipment
maintenance (BEM) in the New York District (Project Number 08YG033DA000). Our
objectives were to determine whether BEM workhours in the New York District can be
reduced through remote or electronic monitoring of building systems and whether
outsourcing BEM is cost-effective. See Appendix A for additional information about this
audit.

Conclusion

The New York District can reduce overtime workhours for BEM by introducing remote
building management systems already being piloted as part of the U.S. Postal Service’s
energy initiatives. Such technologies have the capability of not only reducing energy
consumption, but also of potentially reducing overall workhours related to BEM routes.

The New York District also has the opportunity to update staffing packages to reflect
current workhour requirements for BEM and subsequently conduct a cost analysis to
determine whether outsourcing trade positions would be advantageous. Our limited
cost comparisons of trade positions covered under labor distribution code (LDC) 37
showed that contractor hourly rates were more than in-house rates. However, until the
New York District updates staffing packages and related workhours based on need, it
could risk consuming unnecessary workhours. See Appendix B for our detailed
analysis of this topic.
New York District Building Equipment Maintenance                             DA-AR-09-006



We recommend the Manager, New York District, in conjunction with the Vice President,
Facilities, and the Manager, Maintenance Policies and Programs:

1. Define business requirements for capturing maintenance benefits associated with
   remote building management systems.

We recommend the Manager, New York District:

2. Update building equipment maintenance staffing packages to reflect current staffing
   requirements and subsequently conduct a cost benefit analysis to reassess the need
   for labor distribution code 37 positions.

We recommend the Manager, Maintenance Policies and Programs:

3. Issue a Maintenance Management Order to clarify requirements for periodically
   reviewing and updating building equipment maintenance staffing packages.

Management’s Comments

Management agreed with the findings and recommendations, and agreed to work
together to identify appropriate technologies for self-monitoring and provide condition
based information to prompt maintenance action. Management also completed a LDC
37 staffing package for Morgan Station as of March 2009, which resulted in a reduction
of approximately 15 positions. Furthermore, management plans to issue guidance in
quarter 3, fiscal year (FY) 2009, to periodically review and update staffing packages in
response to recommendation 3. See Appendix C for management’s comments, in their
entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report.

The OIG considers all the recommendations significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendations can be closed.




                                                   2
New York District Building Equipment Maintenance                           DA-AR-09-006




We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Miguel Castillo, Director,
Engineering, or me at (703) 248-2100.


      E-Signed by Darrell E. Benjamin, Jr
      VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

cc:       Rafael Vias
          Robert K. McNiece
          Katherine S. Banks




                                                   3
New York District Building Equipment Maintenance                                   DA-AR-09-006




                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service uses LDC 37 to track workhours associated with BEM for the
activities of tradesmen such as painters, electricians, and BEM mechanics. Handbook
MS-1, Operation and Maintenance Handbook of Real Property, Chapter 13, dated
November 1986, governs the staffing requirement for this function. In general, the
manual provides guidance to:

      •    Promote the most effective and efficient use of staffing.
      •    Determine budgetary requirements.
      •    Evaluate the maintenance effort.
      •    Ensure maintenance efforts preserve building equipment in a safe and
           economical operating condition.

Workhour needs are generated locally through a staffing process that considers time
for:

      •    Preventive and corrective maintenance.
      •    Equipment operation.
      •    Miscellaneous and space adjustments.
      •    Travel time to the various work locations on a route.

These hours are categorized for work associated with heating ventilation and air
conditioning (HVAC), electrical, elevator, plumbing, and other building maintenance
activities. Workhour needs are supported by considering frequencies, total productive
staff hours,1 and annual travel time for each category of maintenance. When
completed, staffing packages are submitted for area office review and approval.

Table 1 shows the workhours tracked in LDC 37 for BEM mechanics and other trades.
Of these, BEM mechanics consumed the most workhours, including overtime.




1
    Productive staff hours represent the time used to conduct maintenance tasks.




                                                           4
New York District Building Equipment Maintenance                                                  DA-AR-09-006



Table 1- New York District Workhours and Overtime

                                                          Percentage
       Occupation                     LDC 37               of Total              LDC 37     Overtime
                                     Workhours            Workhours             Overtime   Percentage
BEM Mechanic                            137,828                  25               12,541         33
Maintenance Technician                  114,617                  21                6,940         19
Painter                                 90,990                   17                3,585         10
Maintenance Electrician                 43,582                   8                 2,819         8
Plumber                                 44,797                   8                 4,686         12
Maintenance Mechanic                    30,719                   6                  516          1
Building Maintenance                    22,728                   4                 3,186         8
Custodian
Carpenter                                20,795                   4                1,535          4
Welder                                   12,476                   2                 488           1
Machinist                                 9,957                   2                 452           1
Fireman Laborer                           9,475                   2                 322           1
Stationary Engineer                       3,743                   1                 229           1
Industrial Equipment                      1,644                   0                 211           1
Mechanic
Office Appliance Repairman                416                     0                 0             0
Total                                   543,769                                   37,511
Data is for calendar year 2008 and was extracted from payroll, pay periods 1 through 26.


The Postal Service can contract for BEM and other trade services within the constraints
of labor contract EL 912.2 Generally, the Postal Service is required to consider public
interest, cost, efficiency, availability of equipment, and qualification of employees when
evaluating the need to subcontract. When contracting out for these services, the Postal
Service has the responsibility to provide affected employees with advance notification
and justification.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine whether BEM workhours in the New York District can
be reduced through remote monitoring of building systems and whether outsourcing
BEM is cost-effective.

To accomplish our objectives, we interviewed New York District maintenance managers
and headquarters maintenance officials. We evaluated supporting documentation for
LDC 37 staffing packages at two large facilities3 and ongoing Postal Service initiatives
that would affect our objectives. We also compared Postal Service BEM labor rates
with those of local industry. We extracted workhour data from the eFlash and payroll
systems and route information from the Electronic Maintenance Activity Reporting and


2
  EL 912 2006-2010, Agreement between United States Postal Service and American Postal Workers Union, Article
32, provides for subcontracting. The duration of the agreement is November 21, 2006, through November 20, 2010.
3
  Morgan Processing and Distribution Center (P&DC) and James A. Farley P&DC.




                                                            5
New York District Building Equipment Maintenance                              DA-AR-09-006



Scheduling system. The data in these systems were sufficiently reliable to answer our
objectives.

We conducted this performance audit from September 2008 through March 2009 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We reviewed policies and
procedures for internal controls, discussed our observations and conclusions with
management officials on February 24, 2009, and included their comments where
appropriate.

PRIOR AUDIT COVERAGE

In the last several years, the OIG did not conduct any audits or reviews related to the
objectives of this audit.




                                                   6
New York District Building Equipment Maintenance                                                 DA-AR-09-006




                                  APPENDIX B: DETAILED ANALYSIS

Our review of the New York District’s justifications for BEM personnel showed that:

      •    BEM officials did not take advantage of less labor-intensive technologies to
           monitor building systems and control workhours.
      •    The two large facilities reviewed had not updated their BEM staffing packages –
           in fact, one had not been updated in 16 years. Therefore, the district could not
           determine whether it would be advantageous to outsource BEM trade positions,
           and the facilities may not be properly staffed for these positions.

Remote Monitoring of Building Systems

Postal Service BEM policies4 call for the efficient use of resources. However, when
compared to leading BEM management practices, the New York District did not employ
modern technologies that minimize resource usage.

Leading BEM management practices call for equipping modern buildings with smart
monitoring systems that:

      •    Constantly test HVAC and security systems for failures.
      •    Optimize troubleshooting and repair.
      •    Reduce system downtime, training costs, actual repair costs, and travel time.

In contrast, the New York District attempted to comply with the Handbook MS-1
standard, which is more than 22 years old and is based on traditional labor-intensive
approaches to monitoring and maintaining buildings.

Modern building system technologies can also reduce the frequency of travel time.
They accomplish this by performing diagnostics automatically and the results are
studied remotely, instead of the traditional diagnostics that are part of the current
preventive maintenance routines, which require the technician to physically visit the
facility.

A Postal Service study,5 which included the New York District, confirmed that modern
systems result in a general reduction in BEM costs. In the study, the Postal Service
estimated that implementing modern systems could lower BEM workhours related to
travel and standby route time by 80 percent.

Although we could not confirm the extent of workhour benefits because of the age of the
Postal Service’s study, we agree that remote building monitoring systems can

4
    MS-1 Chapter 13, Section 13-102, dated November 30, 1986.
5
    Breakthrough Productivity Initiative: Proposal from Building Equipment Maintenance LDC 37.




                                                           7
New York District Building Equipment Maintenance                                                         DA-AR-09-006



significantly reduce BEM time. For example, Table 2 shows traveling route information
from the current staffing package for the Morgan Processing and Distribution Center
(P&DC). In particular, the staffing package shows that 58 percent of time is related to
travel during maintenance routes.6

                       Table 2 – Comparison of Productive Staff-hours to
                              Annual Travel Time – Morgan P&DC

                                                                     Minor            Annual        Percentage
                                              Productive
                  Route Type                                   Adjustments             Travel     Annual Travel
                                              Staff Hours
                                                               (10 Percent)             Time              Time
     HVAC (Air Conditioning)                         5,327                533           4,561                   44
     HVAC (Compressed Systems)                       1,325                132           1,850                   56
     HVAC (Fans & Pumps)                               524                 52           1,538                   73
     Elevator                                          413                 41             650                   59
     Electrical                                          67                  7          1,953                   96
     Miscellaneous Equipment                           318                 32           1,935                   85
     Total                                           7,974                797          12,487                   58


When applied to the New York District, modern building technologies can reduce
workhours associated with traveling to operating and stationary operating routes.
These technologies would automate diagnostics for continuous passive monitoring,
allowing technicians to focus on reacting to situations that call for maintenance work.

The Postal Service piloted remote building systems as an energy initiative because
these systems provided favorable financial returns. During a 13-month pilot period at
16 small and medium-sized facilities, the Postal Service reported energy savings alone
of more than 13 percent (or $39,0007). While the pilot did not extend to the New York
District, headquarters maintenance and facility energy managers agreed that these
technologies can be further applied to improve BEM management in the New York
District.




6
  As shown on Postal Service Form 4894, Traveling Operating Route, the Morgan P&DC staffing package reflects
workhour categories of total productive staff hours, minor adjustments, annual travel time, and stationary route staff
hours approved in 1993.
7
  Savings based on a 13-month period from July 20, 2007, through August 27, 2008.




                                                           8
New York District Building Equipment Maintenance                                                     DA-AR-09-006




Benefits of Outsourcing Building Equipment Maintenance Unknown

We could not determine whether outsourcing positions for BEM in the New York District
would be advantageous. As shown in Table 3, hourly labor rates appear to be less
expensive in-house than prevailing contractor rates.8

        Table 3 – Comparison of Postal Service and Contractor Labor Rates

                                                 2008 Postal
                                                                      Contractor          Percentage
                       Title                       Service
                                                                      Hourly Rate         Difference
                                                 Hourly Rate
         Maintenance Electrician                   $44.63                 $60.05                $(15.42)
         Maintenance Mechanic                      $40.59                 $46.29                 $(5.70)
         Painter                                   $43.26                 $45.75                 $(2.49)

However, the two sites analyzed had not updated their staffing packages to reflect the
total hours needed. The staffing package for the Morgan P&DC was last updated in
1993. In addition, while the Postal Service continues to occupy parts of the James A.
Farley P&DC, the staffing package had not been updated since the building was sold in
FY 2007. Handbook MS-1 requires that the staffing package be revised when
significant changes are made in buildings and equipment. However, the handbook
does not stipulate the frequency with which staffing packages are to be completed.

Without current staffing packages, the New York District risks paying employees for
unnecessary work. For example, we question the need for 27 painter positions at the
James A. Farley P&DC. According to Handbook MS-1, the interior square feet the
Postal Service is responsible for painting would require approximately three painters.9
Reducing painter positions to prescribed standards could have a visible impact on
overtime, since painters consumed the highest overtime for trade positions at the James
A. Farley P&DC and the fourth highest in the district.




8
  Contractor rate for Manhattan, NY, used as U.S. Bureau of Labor Statistics (BLS) average contractor rates for New
York, New Jersey and Pennsylvania. BLS rates do not include administrative and other overhead costs that are part
of the contractor rate presented.
9
  Handbook MS-1, Chapter 13, Sections 13-505.1 and 13-505.2.




                                                         9
New York District Building Equipment Maintenance           DA-AR-09-006



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                   10
New York District Building Equipment Maintenance        DA-AR-09-006




                                                   11
